SIGAR                                Special Inspector General for
                                      Afghanistan Reconstruction




                                               SIGAR 14-23 Financial Audit




      USAID’s Food Insecurity Response for Urban Populations
      Program: Audit of Costs Incurred by World Vision, Inc.




                                                JANUARY
                                                            2014

SIGAR 14-23-FA/ FIRUP Program
January 22, 2014


Dr. Rajiv Shah
Administrator, U.S. Agency for International Development
Mr. William Hammink
Afghanistan Mission Director, U.S. Agency for International Development


This letter transmits the results of our audit of costs incurred by World Vision, Inc. (World Vision) under a U.S.
Agency for International Development (USAID) cooperative agreement to provide support for the Food
Insecurity Response for Urban Populations (FIRUP) program. 1 The audit, performed by Crowe Horwath LLP
(Crowe Horwath), covered the period March 11, 2009, through January 15, 2011, and total expenditures of
$11,034,373.
USAID’s cooperative agreement with World Vision provided support for the FIRUP program. The overall goal of
the FIRUP program was to promote temporary employment to rapidly increase the purchasing power of Afghan
citizens, so that they would be able to satisfy their urgent food needs. The cooperative agreement required
World Vision to provide short-term cash-for-work opportunities, assist in the development of the agriculture
industry, and expand and improve local infrastructure in the western Afghanistan provinces of Herat, Ghor, and
Badghis.
The specific objectives of this financial audit were to
    •    render an opinion on the fair presentation of World Vision’s Fund Accountability Statement; 2
    •    determine and report on whether World Vision has taken corrective action on recommendations from
         prior audits or assessments;
    •    identify and report on significant deficiencies, including any material weaknesses, in World Vision’s
         internal control over financial reporting; and
    •    identify and report on instances of material noncompliance with terms of the award and applicable
         laws and regulations.
In contracting with an independent audit firm and drawing from the results of their audit, SIGAR is required by
auditing standards to provide oversight of the audit work performed. Accordingly, SIGAR reviewed Crowe
Horwath’s audit results and their supporting audit documentation and found them to be in accordance with
generally accepted government auditing standards.
Crowe Horwath issued a disclaimer of opinion on the Fund Accountability Statement because the audit firm
was unable to quantify the impact on the statement of World Vision's practice of classifying some national
office operating costs, first as direct costs to the FIRUP program, and then as indirect costs allocated to
multiple awards. World Vision reclassified the direct costs as indirect to avoid exceeding budget restrictions
imposed by the cooperative agreement. As a result, an unquantified amount of federal award costs may have
been shifted to other projects World Vision had at the time (including other federal awards) through indirect
cost charges. World Vision’s reclassification practice violates OMB Circular A-122, which requires that, to be
allowable, costs must be afforded consistent treatment. Additionally, Section II of the Negotiated Indirect Cost


1 USAID cooperative agreement number 306-A-00-09-00513-00.
2 The Fund Accountability Statement is a special purpose financial statement that includes all revenues received, costs
incurred, and any remaining balance for a given award during a given period.
Rate Agreement requires that similar types of costs be accorded consistent treatment. The scope of this audit
was limited to USAID’s cooperative agreement with World Vision, preventing Crowe Horwath from assessing the
impact of the cost reclassification on other awards. 3 This matter has been referred to SIGAR’s Investigations
Directorate.
Crowe Horwath identified two prior audit findings pertinent to the FIRUP program and found that World Vision
did not take adequate corrective action to address one of the prior recommendations. 4 Crowe Horwath
reported seven internal control deficiencies and nine instances of noncompliance, which prompted the
auditors to question $674,049 in costs. These questioned costs included $667,795 in ineligible costs 5 and
$6,254 in unsupported costs. 6 See table 1.
Table 1 - Summary of Questioned Costs
 Category                                   Questioned Costs Total                     Ineligible             Unsupported

 Program Outputs                                               $6,095                                                $6,095

 Other Direct Costs                                             $159                                                   $159

 Indirect Costs                                             $667,795                   $667,795

 Totals                                                     $674,049                   $667,795                      $6,254

In addition, the audit found that World Vision had not remitted an estimated $295 in interest revenue earned
on advances given by USAID.
Given the results of the audit, SIGAR recommends that the Mission Director of USAID/Afghanistan:

     1. Determine the allowability of and recover, as appropriate, $674,049 in questioned costs identified in
        the report.

     2. Recover the estimated $295 in interest revenue earned from advances provided.

     3. Advise World Vision to address the seven internal control findings identified in the report.
     4. Advise World Vision to address the nine compliance findings identified in the report.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendations.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction

(F-021)



3 OMB Circular A-133 reports issued for 2009, 2010, and 2011 indicate that World Vision had more than four other federal

awards funded by USAID and other federal organizations in each year. See audit finding 2013-01 for additional details.
4 See audit finding 2013-08 for additional details.
5 Ineligible costs are unreasonable; prohibited by the audited contract or applicable laws and regulations; or not award-

related. Ineligible costs are costs that the auditor has determined to be unallowable. These costs are recommended for
review by USAID to make a final determination regarding allowability.
6 Unsupported costs are not supported with adequate documentation or did not have required prior approvals or

authorizations.




                                                           2
                   World Vision, Inc.

            Fund Accountability Statement

Food Insecurity Response for Urban Populations Program

For the Period March 11, 2009, through January 15, 2011

      (With Independent Auditor’s Report Thereon)
SIGAR                                                                           World Vision, Inc.




Table of Contents
TRANSMITTAL LETTER .......................................................................................................................................... 1 

SUMMARY ................................................................................................................................................................ 2 

INDEPENDENT AUDITOR’S REPORT ON THE FUND ACCOUNTABILITY STATEMENT ................................... 7 

INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL ...................................................................... 13 

INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE ................................................................................... 15 

SECTION I: SCHEDULE OF FINDINGS AND QUESTIONED COSTS .................................................................. 17 

SECTION II: SUMMARY SCHEDULE OF PRIOR AUDIT, REVIEW, AND ASSESSMENT FINDINGS................. 28 

APPENDIX A – VIEWS OF RESPONSIBLE OFFICIALS....................................................................................... 29 

APPENDIX B – AUDITOR’S REBUTTAL............................................................................................................... 34 




                                                                     www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP

Crowe Horwath LLP is an independent member of Crowe Horwath International, a Swiss verein. Each member firm of Crowe Horwath Interna ional
is a separate and independent legal entity. Crowe Horwath LLP and its affiliates are not responsible or liable for any acts or omissions of Crowe
Horwath International or any other member of Crowe Horwath International and specifically disclaim any and all responsibility or liability for acts or
omissions of Crowe Horwath International or any o her member of Crowe Horwath International. Crowe Horwath International does not render any
professional services and does not have an ownership or partnership interest in Crowe Horwath LLP. Crowe Horwath International and its other
member firms are not responsible or liable for any acts or omissions of Crowe Horwath LLP and specifically disclaim any and all responsibility or
liability for acts or omissions of Crowe Horwa h LLP.
SIGAR                                             World Vision, Inc.                                               1




                                                                       Crowe Horwath LLP
                                                                       Independent Member Crowe Horwath International

                                                                       1325 G Street NW, Suite 500
                                                                       Washington D.C. 20005-3136
                                                                       Tel 202.624.5555
                                                                       Fax 202.624.8858
                                                                       www.crowehorwath.com

Transmittal Letter
December 27, 2013

To the Board of Directors of World Vision, Inc.
300 I Street NE
Washington, D.C. 20002


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


We appreciate the opportunity to provide to you our report regarding the procedures that we have
completed during the course of our audit of World Vision, Inc.’s (“World Vision”) cooperative agreement
with the United States Agency for International Development funding the Food Insecurity Response for
Urban Populations (“FIRUP”) program.

Within the pages that follow, we have provided a brief summary of the work performed. Following the
summary, we have incorporated our report on the Fund Accountability Statement, report on internal
control, and report on compliance. Accordingly, we do not express an opinion on the summary and any
information preceding our reports.

When preparing our report, we considered comments, feedback, and interpretations provided by World
Vision and the Office of the Special Inspector General for Afghanistan Reconstruction both in writing
and orally throughout the audit planning and fieldwork phases. Management’s final written responses
were also considered and are incorporated into the report as an appendix. Our rebuttal to
management’s responses has also been included.

Thank you for providing us the opportunity to work with you and to conduct the financial audit of World
Vision’s FIRUP project.


Sincerely,




John Weber, CPA, Partner
Crowe Horwath LLP




                                          www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP
SIGAR                                             World Vision, Inc.                                   2




Summary
Background
World Vision, Inc. (“World Vision”) entered into a cooperative agreement with the United States Agency
for International Development (“USAID”) to provide short-term cash-for-work opportunities, assist in the
development of the agriculture industry, and expand and improve local infrastructure under a program
entitled the “Food Insecurity Response for Urban Populations” (“FIRUP”). The cooperative agreement
– 306-A-00-09-00513-00 – incorporated an initial ceiling price of $4,500,000 and a period of
performance of March 11, 2009, through September 7, 2009. Through subsequent modifications to the
cooperative agreement, the final completion date was established as January 15, 2011, with an
obligation amount of $11,153,577. World Vision reported that $11,034,373 was expended on project
activities during the project’s period of performance.

Throughout the period in which work was performed in the Western Afghanistan provinces of Herat,
Ghor, and Badghis, World Vision collaborated with citizens in Afghanistan, USAID, local and regional
subcontractors, and non-profit entities to deliver the requested project scope. As reported in World
Vision’s final report, the FIRUP project results (unaudited by Crowe) included, but were not limited to:

          46,318 direct beneficiaries and 231,590 indirect beneficiaries were reached;
          In Ghor province, 222 projects were implemented;
          In Badghis province, 289 projects were implemented;
          In Herat, 348 projects were implemented;
          Short-term employment opportunities were provided, including increased involvement of
           women;
          Roads into Herat, Badghis, and Ghor provinces were expanded and improved; and
          Various agriculture assets in rural communities were rehabilitated.

Project work concluded in January 2011.

Work Performed
Crowe Horwath LLP (“Crowe”) was engaged by the Office of the Special Inspector General for
Afghanistan Reconstruction (“SIGAR”) to conduct a financial audit of World Vision’s FIRUP project.

Objectives Defined by SIGAR
The following audit objectives were defined within the Performance Work Statement for Financial Audits
of Costs Incurred by Organizations Task ordered by the U.S. Government for Reconstruction Activities
in Afghanistan:

Audit Objective 1 – Internal Controls
Evaluate and obtain a sufficient understanding of the audited entity’s internal control related to the
award; assess control risk; and identify and report on significant deficiencies including material internal
control weaknesses.




                                           www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP
SIGAR                                              World Vision, Inc.                                   3



Audit Objective 2 – Compliance
Perform tests to determine whether the audited entity complied, in all material respects, with the award
requirements and applicable laws and regulations; and identify and report on instances of material
noncompliance with the terms of the award and applicable laws and regulations, including potential
fraud or abuse that may have occurred.

Audit Objective 3 – Corrective Action on Prior Findings and Recommendations

Determine and report on whether the audited entity has taken adequate corrective action to address
findings and recommendations from previous engagements that could have a material effect on the fund
accountability statement.

Audit Objective 4 – Fund Accountability Statement

Express an opinion on whether the Fund Accountability Statement for the award presents fairly, in all
material respects, revenues received, costs incurred, items directly procured by the U.S. Government
and fund balance for the period audited in conformity with the terms of the award and accounting
principles generally accepted in the United States of America or other comprehensive basis of
accounting.

Scope
The scope of the audit included the period March 11, 2009, through January 15, 2011, for the FIRUP
project. The audit was limited to those matters and procedures pertinent to the cooperative agreement
that could have a direct and material effect on the Fund Accountability Statement (“FAS”) and
evaluation of the presentation, content, and underlying records of the FAS. The audit included reviewing
the financial records that support the FAS to determine if there were material misstatements and if the
FAS were presented in the format required by SIGAR. In addition, the following areas were determined
to be direct and material and, as a result, were included within the audit program for detailed evaluation:

     Allowable Costs;
     Allowable Activities;
     Cash Management;
     Eligibility;
     Period of Availability of Federal Funds;
     Procurement;
     Reporting;
     Subrecipient Monitoring; and
     Special Tests and Provisions, including matters pertaining to the vetting of contractors and
     beneficiaries to determine if they are or were suspected of potentially supporting or funding terrorist
     activities.

Methodology
To meet the aforementioned objectives, Crowe completed a series of tests and procedures to audit the
FAS, tested compliance and considered the auditee’s internal controls over compliance and financial
reporting, and determined if adequate corrective action was taken in response to prior audit findings.
For purposes of meeting Audit Objective 1 regarding internal control, Crowe requested and the auditee
provided copies of policies and procedures and verbally communicated those procedures that do not
exist in written format to provide Crowe with an understanding of the system of internal control
established by World Vision. The system of internal control is intended to provide reasonable


                                           www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP
SIGAR                                              World Vision, Inc.                                    4



assurance of achieving reliable financial and performance reporting and compliance with applicable
laws and regulations. Crowe corroborated internal controls identified by the auditee and conducted
testing of select key controls to understand if they were implemented as designed.

Audit Objective 2 requires that tests be performed to obtain an understanding of the auditee’s
compliance with requirements applicable to the cooperative agreement. Crowe identified – through
review and evaluation of the cooperative agreement executed by and between World Vision and
USAID, the Code of Federal Regulations (“CFR”), and applicable circulars issued by the United States
Office of Management and Budget (“OMB”) – the criteria against which to test the FAS and supporting
financial records and documentation. Using sampling techniques, Crowe selected expenditures, cash
drawdowns requests submitted to USAID, procurements, cash disbursements, and project reports for
audit. Supporting documentation was provided by the auditee and subsequently evaluated to assess
World Vision’s compliance. Testing of indirect costs was limited to determining whether indirect costs
were calculated and charged to the U.S. Government in accordance with the negotiated indirect cost
rate agreements (“NICRA”), associated restrictions and limitations established within the NICRA, and
whether costs were treated consistently as direct or indirect charges.

To obtain an understanding of the nature of audit reports and other assessments that were completed
and the required corrective action as per Audit Objective 3, Crowe inquired of World Vision regarding
prior audits and reviews. Three prior audits were completed that included the FIRUP project within their
scope. We reviewed the corrective action taken in response to recommendations made in the three
prior audits to determine if they were adequate.

With regard to Audit Objective 4 pertaining to the FAS, transactions were selected from the financial
records underlying the FAS and the transactions were tested to determine if the transactions were
recorded in accordance with the basis of accounting identified by the auditee; were incurred within the
period covered by the FAS and in alignment with specified cutoff dates; were charged to the appropriate
budgetary accounts; and were adequately supported.

Due to the location and nature of the project work and certain vendors and individuals who supported
the project still residing in Afghanistan, certain audit procedures were performed on-site in Afghanistan
as deemed necessary.

Summary of Results
Upon completion of Crowe’s procedures, Crowe identified ten findings because they met one or more of
the following criteria: (1) significant deficiencies in internal control, (2) material weaknesses in internal
control, (3) deficiencies that resulted in questioned costs, and/or (4) noncompliance with rules, laws,
regulations, or the terms and conditions of the cooperative agreement. Other matters that were
identified during the course of the audit, but were not classified as findings, were either reported within a
management letter dated December 12, 2013, or were communicated verbally to World Vision.

Crowe also reported on both World Vision’s compliance with the applicable laws, rules, regulations, and
terms and conditions of the cooperative agreement and the internal controls over compliance. Five
material weaknesses in internal control, two significant deficiencies in internal control, and seven
instances of material noncompliance were reported. Two other instances of noncompliance were noted
and reported as findings due to their resulting in questioned costs pursuant to the reporting
requirements prescribed by SIGAR. Where internal control and compliance findings pertained to the
same matter, they were consolidated within a single finding. A total of $674,049 in costs was questioned
as presented in TABLE A contained herein.

Finding 2013-03 includes $295 in estimated interest that is payable to the Government based on World
Vision’s carrying excess Federal cash for multiple periods during the project’s period of performance.


                                           www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP
SIGAR                                                      World Vision. Inc.                       5



The amount represents foregone interest that would have been received or earned by the Government
and does not have an impact on the costs incurred.

Crowe also requested copies of prior audits, reviews, and evaluations pertinent to World Vision's
financial performance under the cooperative agreement. World Vision provided copies of three reports
from audits conducted in accordance with OMB Circular A-133 along with management's responses.
Two findings were reported by the external auditors that were pertinent to the FIRUP project. World
Vision implemented corrective action going forward that helped to address the cause of the findings.
However, one finding was repeated within Crowe's audit report due to suspension and debarment
searches not having been conducted consistently throughout the audit period; see audit finding 2013-
08.

Crowe issued a disclaimer of opinion on the FAS. The basis for the disclaimer of opinion is addressed
within Crowe's Independent Auditor 's Report on the Fund Accountability Statement.

This summary is intended to present an overview of the results of procedures completed for the
purposes described herein and is not intended to be a representation of the audit's results in their
entirety.
                            TABLE A: Summary of Findings and Questioned Cos ts




             2013-01

                                    Eligibility: Documentation       Supporting
             2013-02                                                                  $4,949   $672,744
                                    Beneficiary Eligibility
                                    Cash Management: Reimbursement
             2013-03                                                                     $0    $672,744
                                    versus Advance Basis Payments
                                    Cash    Management:    Undocumented
             2013-04                                                                   $159    $672,903
                                    Federal Cash Disbursements
             2013-05                Foreign Currency Conversions                         $0    $672,903
                                    Reporting: Supporting Documentation for
             2013-06                                                                     $0    $672,903
                                    Programmatic Reports
                                    Reporting: Timely Submission of Federal
             2013-07                                                                     $0    $672,903
                                    Reports
                                    Procedures    to    Prevent         Funding
             2013-08                Suspended,    Debarred, or         Excluded       $1,140   $674,043
                                    Parties
                                    Allowable     Costs:       Payment          for
             2013-09                                                                     $6    $674,049
                                    Beneficiary
             2013-10                Generation of a Procurement Population               $0    $674,049
 Total Questioned Costs                                                                        $674,049




lA Crowe Horwath.                                 'N'WW.crowehorwath.com


@Copyright 2014 Crowe Horwath LLP
SIGAR                                            World Vision, Inc.                                  6



Summary of Management Comments

World Vision agreed with all of the findings with the exception of finding 2013-10. World Vision agreed
with the questioned costs included within the report as well except for the questioned costs presented in
findings 2013-01 and 2013-02. Management indicated that, of the $667,795 transferred into the indirect
cost pool, only $6,644 was ultimately charged to the FIRUP project. In addition, World Vision did not
agree that procedures were required to be conducted (e.g., searches of Federal systems such as the
Excluded Parties List System and Office of Foreign Assets Control) to ensure that Federal funds were
not provided to individuals who were excluded from receiving assistance pursuant to Section C.28 of the
cooperative agreement. While World Vision generally agreed with the findings, World Vision did not
agree with the inclusion of questioned costs amounting to less than $10,000 as World Vision is
ordinarily subject to audits conducted in accordance with OMB Circular A-133, which has reporting
thresholds that differ from those prescribed by SIGAR.

References to Appendices

The auditor’s reports are supplemented by two appendices. Appendix A includes the Views of
Responsible Officials, which are management’s responses to the findings presented within the report.
Appendix B includes the auditor’s rebuttal to management’s responses.




                                          www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP
                                                                         Crowe Horwath LLP
                                                                         Independent Member Crowe Horwath International




       INDEPENDENT AUDITOR’S REPORT ON THE FUND ACCOUNTABILITY STATEMENT


To the Board of Directors of World Vision, Inc.
300 I Street NE
Washington, D.C. 20002


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


Report on the Fund Accountability Statement

We were engaged to audit, in accordance with the auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government Auditing
Standards issued by the Comptroller General of the United States, the Fund Accountability Statement
(“the Statement”) of World Vision, Inc. (“World Vision”) and related notes to the Statement, for the period
March 11, 2009, through January 15, 2011, with respect to the Food Insecurity Response for Urban
Populations (“FIRUP”) project funded by cooperative agreement number 306-A-00-09-00513-00. We
have issued our report thereon dated December 12, 2013.


Management’s Responsibility for the Fund Accountability Statement

Management is responsible for the preparation and fair presentation of the Statement in accordance
with the requirements specified by the Office of the Special Inspector General for Afghanistan
Reconstruction (SIGAR) in Appendix V of Solicitation ID05130041 (“Contract”). Management is also
responsible for the design, implementation, and maintenance of internal control relevant to the
preparation and fair presentation of a Statement that is free from material misstatement, whether due to
fraud or error.


Auditor’s Responsibility

Our responsibility is to express an opinion on the Fund Accountability Statement based on conducting
the audit in accordance with auditing standards generally accepted in the United States of America and
Government Auditing Standards issued by the Comptroller General of the United States. Because of
the matters described in the Basis for Disclaimer of Opinion paragraph, however, we were not able to
obtain sufficient appropriate audit evidence to provide a basis for an audit opinion.


Basis for Disclaimer of Opinion

We were unable to obtain sufficient appropriate audit evidence to fully quantify the impact of World
Vision’s misallocation of costs on the fund accountability statement. The terms of the engagement
limited the scope of this audit to the FIRUP cooperative agreement listed above; further, the terms also




                                                  (Continued)

                                                                                                                          7.
restricted the audit of indirect costs charged to the award to an assessment of the indirect cost rate
agreement and evaluation of the cost allocation methodology for alignment with the Federal cost
principles prescribed in Office of Management and Budget Circular A-122. Therefore, we could not form
an audit opinion of the fund accountability statement.


Disclaimer of Opinion on the Fund Accountability Statement

Because of the significance of the matter described in the Basis for Disclaimer of Opinion paragraph, we
have not been able to obtain sufficient appropriate audit evidence to provide a basis for an audit opinion
on the Statement for the period March 11, 2009, through January 15, 2011, as pertaining to the FIRUP
project. Accordingly, we do not express an opinion on the Fund Accountability Statement.


Restriction on Use

This report is intended for the information of World Vision, the United States Agency for International
Development, and the Office of the Special Inspector General for Afghanistan Reconstruction. Financial
information in this report may be privileged. The restrictions of 18 U.S.C. 1905 should be considered
before any information is released to the public.


Report on Other Legal and Regulatory Requirements

In accordance with Government Auditing Standards, we have also issued reports dated December 12,
2013, on our consideration of World Vision’s internal controls over financial reporting and on our tests of
its compliance with certain provisions of laws, regulations, contracts, and other matters. The purpose of
those reports is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide an opinion on internal control over financial
reporting or on compliance. Those reports are an integral part of an audit performed in accordance with
Government Auditing Standards and should be considered in assessing the results of our audit.




                                                           Crowe Horwath LLP

December 12, 2013
Washington, D.C.




                                                                                                          8.
                                                                          World Vision, Inc.
                                                           Cooperative Agreement No. 306-A-00-09-00513-00
                                                           Food Insecurity Response for Urban Populations
                                                               FUND ACCOUNTABILITY STATEMENT
                                                              March 11, 2009, through January 15, 2011
                                    
                                                                                                            Questioned Costs
                                       Obligated
                                        Amount                  Budget                   Actual         Ineligible   Unsupported   Notes

Revenues
Award No. 306-A-00-09-00513-
                                       $ 11,153,577         $    16,500,000          $    11,034,373                                 4
00

Total Revenue                          $ 11,153,577         $    16,500,000          $    11,034,373


Costs Incurred
Salaries & Benefits                                         $     1,541,731          $     2,069,460    $       -    $         -
Travel & Transportation                                             521,215                  415,518            -              -
Capital Equipment >$5,000                                            18,000                        -            -              -
Supplies & Equipment <$5,000                                        209,580                  104,870            -              -
Program Outputs                                                   9,990,462                6,397,861            -          6,095   B, D, E
Other Direct Costs                                                  766,262                  479,214            -            159      C
Indirect Costs                                                    3,452,750                1,567,450      667,795              -      A
Total Costs Incurred                   $ 11,153,577         $    16,500,000          $    11,034,373    $ 667,795    $     6,254    6, F

Outstanding Fund Balance                                    $                -       $             -




  The accompanying notes to the Fund Accountability Statement are an integral part of this Statement.




                                                                                 (Continued)

                                                                                                                                             9.
                                         World Vision, Inc.
                            Notes to the Fund Accountability Statement
                      For the Period March 11, 2009, through January 15, 2011


Note 1. Basis of Presentation

The accompanying Fund Accountability Statement (the "Statement") includes costs incurred under
cooperative agreement number 306-A-00-09-00513-00 for the Food Insecurity Response for Urban
Populations for the period March 11, 2009, to January 15, 2011. Because the Statement presents only
a selected portion of the operations of World Vision, Inc. and World Vision, Inc. (collectively “World
Vision”) it is not intended to and does not present the financial position, changes in net assets, or cash
flows of World Vision. The information in this Statement is presented in accordance with the
requirements specified by the Office of the Special Inspector General for Afghanistan Reconstruction
("SIGAR") and is specific to the aforementioned Federal award. Therefore, some amounts presented in
this Statement may differ from amounts presented in, or used in the preparation of, the basic financial
statements.


Note 2. Basis of Accounting

Expenditures reported on the accompanying Fund Accountability Statement are reported on the accrual
basis of accounting. Such expenditures are recognized following the costs principles contained in OMB
Circular A-122, Cost Principles for Non-Profit Organizations.


Note 3. Foreign Currency Conversion Method

Revenue and expenses are translated into U.S. dollars at weighted average rates each month.


Note 4. Revenues

Revenue is recognized in the period the Organization incurs reimbursable program expenditures.


Note 5. Costs Incurred by Budget Category

The budget categories presented and associated amounts reflect the final, USAID-approved budget
appearing in cooperative agreement number 306-A-00-09-00513-00, modification #2 effective March
11, 2009, and signed December 7, 2009.


Note 6. Fund Balance

The fund balance of $0 presented on the Statement represents the difference between revenues earned
and costs incurred.


Note 7. Currency

All amounts presented are shown in United States dollars.


Note 8. Categorization of Personnel Charges

The Salaries & Benefits line in the Statement represents the salaries and benefits paid to the World
Vision staff working on the cooperative agreement. The Program Outputs line includes the cash for
work payments disbursed to the beneficiaries, as well as payments made to teachers who facilitated
health trainings, but were not World Vision staff.


                                              (Continued)

                                                                                                      10.
Note 9. Program Status

The aforementioned award is complete at the time of this Statement. The final FY11 NICRA adjustment
of ($3,195) is the only outstanding financial adjustment that will be reported on the final Federal
Financial Report (SF-425) and will adjust the total indirect costs to $1,564,255.




                                                                                               11.
         Notes to the Questioned Costs Presented on the Fund Accountability Statement1


Note A. Allowable Costs: Cost Allocation and Inconsistent Treatment of Direct Costs

Finding 2013-01 identified $667,795 in questioned costs due to World Vision’s treating direct costs and
indirect costs inconsistently and transferred direct costs into the indirect cost pool to permit recovery of
such costs through the indirect cost rate. Such treatment represents an express violation of the
provisions OMB Circular A-122 and the negotiated indirect cost rate agreement (“NICRA”).


Note B. Eligibility: Documentation Supporting Beneficiary Eligibility

Finding 2013-02 questions $4,949 due to World Vision’s inability to produce documentation supporting
the eligibility of select beneficiaries.


Note C. Cash Management: Undocumented Federal Cash Disbursements

Finding 2013-04 questions $159 due to World Vision’s inability to produce adequate documentation
showing that Federal funds were disbursed for the transaction recorded to the project ledger and due to
an overcharge to the project resulting from a foreign currency conversion.


Note D. Procedures to Prevent Funding Suspended, Debarred, or Excluded Parties

Finding 2013-08 questions $1,140 due to certain vendors being identified within the System for Award
Management as being suspended, debarred, or otherwise excluded and World Vision’s being unable to
produce documentation from the project’s period of performance indicating that the individuals were not
suspended or debarred.


Note E. Allowable Costs: Payment for Beneficiary

Finding 2013-09 questions $6 due to a beneficiary being paid for a day that (s)he did not work.


Note F. Obligated Amount

The obligated amount represents the amount of Federal funds authorized by the U.S. Government for
use on the FIRUP project. Incorporation of this element on the fund accountability statement represents
a deviation from the required presentation format prescribed by the Office of the Special Inspector
General for Afghanistan Reconstruction. The obligated amount is presented on the Statement at the
request of the auditee.




1
  Notes to the Questioned Costs Presented on the Fund Accountability Statement were prepared by the auditor for
informational purposes only and as such are not part of the audited Statement.




                                                                                                             12.
                                                                         Crowe Horwath LLP
                                                                         Independent Member Crowe Horwath International




                  INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL


To the Board of Directors of World Vision, Inc.
300 I Street NE
Washington, D.C. 20002


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


We were engaged to audit, in accordance with the auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government Auditing
Standards issued by the Comptroller General of the United States, the Fund Accountability Statement
(“the Statement”) of World Vision, Inc. (“World Vision”) and related notes to the Statement, for the period
March 11, 2009, through January 15, 2011, with respect to the Food Insecurity Response for Urban
Populations (“FIRUP”) project funded by cooperative agreement number 306-A-00-09-00513-00. We
have issued our report thereon dated December 12, 2013, within which we disclaimed an opinion.

Internal Control over Financial Reporting

World Vision’s management is responsible for establishing and maintaining effective internal control. In
fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies and procedures. The objectives of
internal controls are to provide management with reasonable, but not absolute, assurance that the
assets are safeguarded against loss from unauthorized use or disposition; transactions are executed in
accordance with management’s authorization and in accordance with the terms of the cooperative
agreement; and transactions are recorded properly to permit the preparation of the Statement in
conformity with accounting principles generally accepted in the United States of America and the basis
of presentation described in Note 1 to the Statement. Because of inherent limitations in internal control,
errors or fraud may nevertheless occur and not be detected. Also, projection of any evaluation of the
structure to future periods is subject to the risk that procedures may become inadequate because of
changes in conditions or that the effectiveness of the design and operation of policies and procedures
may deteriorate.

In planning and performing our audit of the Statement for the period March 11, 2009, through January
15, 2011, we considered World Vision’s internal controls to determine audit procedures that are
appropriate in the circumstances for the purpose of expressing our opinion on the Statement, but not for
the purpose of expressing an opinion on the effectiveness of World Vision’s internal control.
Accordingly, we do not express an opinion on the effectiveness of World Vision’s internal control.

Our consideration of internal control was for the limited purpose described in the preceding paragraph
and was not designed to identify all deficiencies in internal control that might be material weaknesses or
significant deficiencies and, therefore, material weaknesses or significant deficiencies may exist that
were not identified. However, as described in the accompanying Schedule of Findings and Questioned
Costs, we identified certain deficiencies in internal control that we consider to be material weaknesses
and significant deficiencies. A deficiency in internal control exists when the design or operation of a
control does not allow management or employees, in the normal course of performing their assigned
functions, to prevent, or detect and correct, misstatements on a timely basis. A material weakness is a


                                                  (Continued)

                                                                                                                     13.
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable possibility
that a material misstatement of the Statement will not be prevented, or detected and corrected, on a
timely basis. We consider the deficiencies noted in Findings 2013-01, 2013-02, 2013-03, 2013-06, and
2013-07 in the accompanying Schedule of Findings and Questioned Costs to be material weaknesses.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance. We consider the deficiencies noted in Findings 2013-08 and 2013-10 in the accompanying
Schedule of Findings and Questioned Costs to be significant deficiencies.

We noted certain matters that we reported to World Vision’s management in a separate letter dated
December 12, 2013.

World Vision’s Response to Findings

World Vision’s responses to the findings identified in our audit are attached as Appendix A to this report.
We did not audit World Vision’s responses and, accordingly, we express no opinion on them.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and the results
of that testing, and not to provide an opinion on the effectiveness of the entity’s internal control. This
report is an integral part of an audit performed in accordance with Government Auditing Standards in
considering the entity’s internal control. Accordingly, this communication is not suitable for any other
purpose.

Restriction on Use

This report is intended for the information of World Vision, the United States Agency for International
Development, and the Office of the Special Inspector General for Afghanistan Reconstruction. Financial
information in this report may be privileged. The restrictions of 18 U.S.C. 1905 should be considered
before any information is released to the public.




                                                           Crowe Horwath LLP

December 12, 2013
Washington, D.C.




                                                                                                         14.
                                                                         Crowe Horwath LLP
                                                                         Independent Member Crowe Horwath International




                       INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE


To the Board of Directors of World Vision, Inc.
300 I Street NE
Washington, D.C. 20002


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


We were engaged to audit, in accordance with the auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government Auditing
Standards issued by the Comptroller General of the United States, the Fund Accountability Statement
(“the Statement”) of World Vision, Inc. (“World Vision”) and related notes to the Statement, for the period
March 11, 2009, through January 15, 2011, with respect to the Food Insecurity Response for Urban
Populations (“FIRUP”) project funded by cooperative agreement number 306-A-00-09-00513-00. We
have issued our report thereon dated December 12, 2013, within which we disclaimed an opinion.

Management’s Responsibility for Compliance

Compliance with Federal rules, laws, regulations, and the terms and conditions applicable to the
cooperative agreement are the responsibility of the management of the World Vision, Inc.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Statement is free of material
misstatement, we performed tests of its compliance with certain provisions of laws, regulations, and
contracts, noncompliance with which could have a direct and material effect on the determination of
fund accountability statement amounts. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and, accordingly, we do not express such an opinion. The
results of our tests disclosed instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards and which are described in Findings 2013-01, 2013-02,
2013-03, 2013-04, 2013-05, 2013-07, 2013-08, 2013-09, and 2013-10 in the accompanying Schedule of
Findings and Questioned Costs.

We noted certain matters that we reported to World Vision’s management in a separate letter dated
December 12, 2013.

World Vision’s Response to Findings

World Vision’s responses to the findings identified in our audit are attached as Appendix A to this report.
We did not audit World Vision’s responses and, accordingly, we express no opinion on them.




                                                  (Continued)

                                                                                                                     15.
Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the results of
that testing, and not to provide an opinion on compliance. This report is an integral part of an audit
performed in accordance with Government Auditing Standards in considering the entity’s internal control
and compliance. Accordingly, this communication is not suitable for any other purpose.

Restriction on Use

This report is intended for the information of World Vision, the United States Agency for International
Development, and the Office of the Special Inspector General for Afghanistan Reconstruction. Financial
information in this report may be privileged. The restrictions of 18 U.S.C. 1905 should be considered
before any information is released to the public.




                                                         Crowe Horwath LLP
December 12, 2013
Washington, D.C.




                                                                                                      16.
SECTION I: SCHEDULE OF FINDINGS AND QUESTIONED COSTS

Finding 2013-01: Allowable Costs: Cost Allocation and Inconsistent Treatment of Direct Costs

Material Weakness and Non-Compliance

Criteria: In accordance with the provisions of OMB Circular A-122, to be allowable, costs must be
afforded consistent treatment, conform to any limitations or exclusions set forth in the cost principles or
in the award as to types or amount of cost items, and be allocable to the award. A cost is considered to
be allocable to an award "if it is treated consistently with other costs incurred for the same purpose in
like circumstances" and "may not be shifted to other Federal awards to overcome funding deficiencies
or to avoid restrictions imposed by law or by the terms of the award.”

Direct costs are defined as those "that can be identified specifically with a particular final cost objective,
i.e., a particular award, project, service, or other direct activity of an organization. However, a cost may
not be assigned to an award as a direct cost if any other cost incurred for the same purpose, in like
circumstance, has been allocated to an award as an indirect cost. Costs identified specifically with
awards are direct costs of the awards and are to be assigned directly thereto."

Section II of the Negotiated Indirect Cost Rate Agreement (“NICRA”) prescribes certain limitations
applicable to application of the NICRA. The limitations include, but are not limited to, similar types of
costs being accorded consistent treatment.

The general principles of OMB Circular A-122 further state that “a cost is allocable to a particular cost
objective, such as a grant, contract, project, service, or other activity, in accordance with the relative
benefits received.”

Condition: World Vision allocates costs incurred in the national office located in the cooperating country
to specific projects using a cost allocation model. Three types of charges flow through the cost
allocation model. They are as follows (based on World Vision's "Distinctions Between Cost Allocation
Methodology (CAM) & NICRA" desk guide and communications with World Vision):

        1. Direct Project Costs (DPC): Costs that directly benefit the project they serve and are incurred
        at the project level;
        2. Share Direct Project Costs (SDPC): Costs incurred at the regional/provincial office level (i.e.
        Ghor and Badghis) and are allocated to the projects they serve; and
        3. Other Operating Costs Allocated (OOCA): Costs incurred by the National Office that directly
        benefit all projects and are, therefore, pooled and allocated to each project as direct costs.

In addition, World Vision has a fourth cost type that is included within the indirect charges flowing
through the indirect cost rate calculation. This cost type is entitled the "Other Operating Costs
Unallocated (OOCU)" and includes those costs incurred by the National Office that indirectly benefit all
projects and, therefore, are not allocated to specific projects. During the audit, it was noted that World
Vision instructs its staff to reclassify direct charges to the indirect cost pool when the full amount of
direct charges cannot be allocated to the benefiting project. The specific instruction follows:

        "7) If an amount cannot be fully allocated to the project as OOCA, one of the following two
        options is suggested: A. Allocate the full amount to the project and then make a reversal entry
        back to OOCU (SMC) after the allocation; and B. Adjust the amounts that can be allocated
        manually in the voucher."

Throughout the project, World Vision re-allocated $667,795 in OOCA charges to the indirect cost pool
(OOCU) due to budget limitations. This resulted in inconsistent treatment of similar direct and indirect
charges, a distribution of direct costs as indirect expenditures, and potential recovery of direct charges
through the indirect cost rate. Accordingly, the costs treated inconsistently are unallowable under
Federal regulations. In addition, the transfers were the result of certain limitations being encountered
such that direct costs could not be fully allocated to the project(s) receiving the benefits. The
reclassifications occurred in each year of the project's performance (2009, 2010, and 2011). The

                                                (Continued)

                                                                                                          17.
NICRA rate, which included direct costs as per the aforementioned practice, was assessed against
certain cost bases to calculate charges to the FIRUP project.

Further, World Vision utilized project expenditures as the allocation basis to determine the percentage
of total costs incurred that would be allocated to each project. The National Office's effort on the cash-
for-work project may not be accurately estimated using expenditures. The majority of costs incurred for
the project as reported on the Fund Accountability Statement were not related to World Vision activity,
but rather to work performed by Afghan nationals in the field; approximately 57.98 percent of project
costs were direct costs incurred by beneficiaries through cash-for-work activities.

During the audit, World Vision conducted an assessment of actual costs charged to the project on an
expenditure-driven basis versus a full time equivalent (FTE) approach. The analysis completed by
management (unaudited by Crowe) produced two conclusions: 1) that the project was undercharged
using the policy in place by approximately $589,284; and 2) that the use of an FTE-basis would have
resulted in significantly less potentially eligible costs. Thus, the use of an expenditure-driven basis was
determined to be inequitable and resulted in the FIRUP project not being charged an amount that
reflects its relative benefit. Per review of the OMB Circular A-133 reports issued for 2009, 2010, and
2011, World Vision had greater than four other Federal awards funded by USAID and other Federal
organizations in each year.

Due to the scope of the audit being limited to the FIRUP project, procedures pertaining to other Federal
awards and charges allocated thereto were not conducted. Thus, any actual or potential overcharges to
the Federal Government were not calculated. In addition, due to direct costs associated with the FIRUP
project being reallocated through the indirect cost pool and charged out as a result of the cost allocation
process deficiencies, one cannot determine how much in unallowable charges were assigned to other
Federal projects or what amount of direct charges for other Federal and/or non-Federal projects were
charged to the FIRUP project.

Questioned costs: $667,795

Effect: The Federal Government may have unintentionally supplemented non-Federal projects and
funded other Federal awards through the funds obligated for the FIRUP project due to the misallocation
of costs.

Cause: According to World Vision they utilized the cost allocation methodology described above due to
its relative simplicity and to reduce the risk associated with employing more complex cost allocation
approaches. World Vision also considered the transfer of costs from direct costs to the indirect cost
pool to be appropriate due to World Vision’s being able to identify which costs were direct charged to
the award and which transactions were reversed.

Recommendation: We recommend that World Vision execute the following actions:

1) Conduct a comprehensive assessment of the cost allocation methodology, identify an equitable
distribution base, document how the determination of equitable distribution was made, and provide the
results of the analysis and supporting documentation to USAID for review or refund the $667,795 in
question; 2) identify the impact of shifting direct costs into the indirect cost pool on the NICRA
percentage rate, calculate the resulting overcharge to the FIRUP project based on the inclusion of
unallowable charges, and remit the overcharge amount to the U.S. Government; 3) revise the CAM
instructions to exclude the instruction that staff reclassify direct costs into the indirect cost pool; and 4)
provide training regarding cost allocation under the provisions of OMB Circular A-122 to all Finance staff
(both in the National Office and elsewhere) who are involved in the Afghanistan projects funded by the
U.S. Government.




                                                (Continued)

                                                                                                          18.
Finding 2013-02: Eligibility: Documentation Supporting Beneficiary Eligibility

Material Weakness and Non-Compliance

Criteria: Section B.2 of the cooperative agreement and the second modification to the agreement
specify that the program will be implemented within Herat, Qala-i-Naw, Chaghcharan, Ghor, and
Badghis.

Per Title 22, Part 226.13 of the Code of Federal Regulations, World Vision must comply with the
debarment and suspension requirements presented in 22 CFR Part 208. In accordance with the
aforementioned regulations, World Vision is restricted from providing Federal funds to debarred,
suspended, or otherwise excluded parties.

Pursuant to the provisions of 22 CFR Part 226.53, supporting documents and all other records pertinent
to an award shall be retained for a period of three years from the date of submission of the final
expenditure report. In addition, in accordance with OMB Circular A-122, costs must be adequately
supported in order to be considered allowable for charging to a Federal award.

World Vision's eligibility procedure to determine eligibility includes selecting beneficiaries based on the
recommendations of community leaders (Shuras) regarding vulnerable populations.

Section C.28 of the cooperative agreement states as follows, "The Contractor/Recipient is reminded that
U.S. Executive Orders and U.S. law prohibits transactions with, and the provision of resources and
support to, individuals and organizations associated with terrorism. It is the legal responsibility of the
contractor/recipient to ensure compliance with these Executive Orders and laws."

Condition: World Vision did not provide evidence of the community leaders' recommendations or
documentation to support the physical address of sixty beneficiaries. In addition, searches of the
System for Award Management indicated that thirty of the beneficiaries may be suspended, debarred,
excluded, or otherwise prohibited from receiving Federal funds. World Vision did not have a process in
place during the project's period of performance to determine whether beneficiaries were excluded.

Questioned costs: $4,949

Effect: The Government may have funded individuals who were prohibited from receiving financial
assistance from the Government directly or indirectly or were otherwise excluded from receiving funding
for the USAID-funded project.

Cause: World Vision could not provide documentation supporting the beneficiaries' eligibility and did not
have a process in place to ensure that beneficiaries were not excluded from receiving funds.

Recommendation: We recommend that World Vision either conduct an additional search for evidence of
beneficiaries' eligibility to be funded by the Federal project or return the $4,949 associated with the sixty
beneficiaries. The documentation should be provided to USAID as evidence that the individuals
receiving cash for work resided and worked in the areas targeted by the funding agency. We further
recommend that World Vision begin conducting searches of Federal resources prior to funding
beneficiaries to understand which, if any, beneficiaries are excluded.




                                                (Continued)

                                                                                                         19.
Finding 2013-03: Cash Management: Reimbursement versus Advance Basis Payments

Material Weakness and Non-Compliance

Criteria: Part 3 of the 2009 OMB Circular A-133 Compliance Supplement states that, when entities are
funded on a reimbursement basis, program costs must be paid for by entity funds before reimbursement
is requested from the Federal Government. In addition, 22 CFR Part 226.2 defines an advance as a
payment made by the Government to a recipient upon its request either before outlays are made by the
recipient or through the use of predetermined payment schedules.

22 CFR Part 226.22(b)(2) requires that advances be limited to the minimum amounts needed and be
timed in accordance with actual, immediate cash requirements. The timing and amount of cash
advances must be as close as is administratively feasible to the actual disbursements.

Condition: World Vision utilized a reimbursement basis for determining payment amounts to be
requested from USAID and defined reimbursement as payment for costs incurred. Per review of the
project financial records and amounts drawn down from USAID, World Vision requested and received
cumulative payments that exceeded cumulative actual costs incurred consistently throughout the
project.

During a review of amounts drawn down over the course of the project relative to each month's
expenditures, excess cash was calculated for eight months. Excess cash was defined, for purposes of
the audit, as the cumulative amount of funds drawn down that exceeded the sum of the project's
cumulative expenditures as of month-end and the expenditures for the subsequent month. The amount
of excess cash ranged from $99 to $1,461,409. Thus, World Vision obtained advances of Federal funds
rather than having been reimbursed, as intended. Utilizing the daily interest rates identified by the
United States Department of the Treasury for cash management purposes, $295 in imputed interest
was calculated.

In addition, World Vision does not have a report available that can show the dates that each transaction
was paid. Thus, one cannot determine which, if any, of the costs included in the general ledger reports
supporting reimbursement requests were also unpaid thus rendering them ineligible for reimbursement
at the time the payment requests were submitted.

Questioned costs: None. Imputed interest on excess cash balances was calculated as $295.

Effect: World Vision overcharged the Government continuously by drawing down funds prior to costs
being incurred and paid. Due to the excess drawdowns, the Government lost approximately $295 in
interest.

Cause: World Vision based its drawdown amounts on estimates rather than actual costs incurred.

Recommendation: We recommend that World Vision 1) remit $295 in interest payments to the
Government; 2) revise its cash management procedures such that costs will be submitted for
reimbursement only after having been incurred rather than based on estimates; and 3) conduct an
analysis to identify which costs were unpaid at the time payment was received from the Government
and provide the analysis to USAID for a determination regarding additional interest that may be payable
due to additional funds having been advanced that are otherwise not captured in the imputed interest
calculation.




                                              (Continued)

                                                                                                    20.
Finding 2013-04: Cash Management: Undocumented Federal Cash Disbursements

Non-Compliance

Criteria: Pursuant to OMB Circular A-122, “to be allowable under an award, costs must meet the
following general criteria:
    a. Be reasonable for the performance of the award and be allocable thereto under [the principles
       contained in OMB Circular A-122].
    b. Conform to any limitations or exclusions set forth in [the principles contained in OMB Circular A-
       122] or in the award as to types of amount of cost items.
    c. Be consistent with policies and procedures that apply uniformly to both federally-financed and
       other activities of the organization.
    d. Be accorded consistent treatment.
    e. Be determined in accordance with generally accepted accounting principles (GAAP).
    f. Not be included as a cost or used to meet cost sharing or matching requirements of any other
       federally-financed program in either the current or a prior period.
    g. Be adequately documented.”

Condition: World Vision did not provide documentation showing that payment was made for one
transaction totaling $136 charged to the cooperative agreement. In the absence of disbursement
support, one cannot determine if the Federal funds were used for programmatic purposes and if the
Federal funds received from the Government were transferred to the individuals and entities providing
goods and services for the project.

For an additional two items, World Vision charged an amount greater than that which was necessary
following the conversion of Afghanis to U.S. dollars. The supporting documentation provided by World
Vision did not include the exchange rate utilized to convert the Afghanis to U.S. dollars. Upon review of
historical exchange rate data provided by the Afghanistan International Bank, the mid-point rate for each
of the disbursement dates was 46.67 and 46.24 Afghanis per U.S. dollar, respectively. Use of this
historical information to recalculate the transaction amounts indicated that $23 greater than necessary
was charged to the award.

Questioned costs: $159

Effect: Federal funds paid to World Vision to fund FIRUP project activities may have been diverted to
other sources rather than paying for $136 in charges. The Government may have been overcharged by
$23 as a result of the foreign currency exchange using an exchange rate exceeding what was
necessary on the transaction date.

Cause: World Vision was unable to locate the supporting documentation supporting payment and the
exchange rates used.

Recommendation: We recommend that, unless World Vision can provide documentation showing that
payment was rendered to the vendors, USAID be reimbursed for the $159 in charges to the project




                                              (Continued)

                                                                                                     21.
Finding 2013-05: Foreign Exchange Conversions

Non-Compliance

Criteria: Pursuant to Section C. 16 of World Vision's agreement with USAID, the Chief of Party was
required to obtain written guidance from the Mission Director regarding the method for converting U.S.
dollars to local currency upon arrival in Afghanistan. Section C. 16 states:

        C.16 CONVERSION OF UNITED STATES DOLLARS TO LOCAL CURRENCY (NOVEMBER
        1985):
        Upon arrival in the Cooperating Country, and from time to time as appropriate, the recipient's
        chief of party shall consult with the Mission Director who shall provide, in writing, the procedure
        the recipient and its employees shall follow in the conversion of United States dollars to local
        currency. This may include, but is not limited to, the conversion of currency through the
        cognizant United States Disbursing Officer or Mission Controller, as appropriate.

Condition: World Vision utilized an average exchange rate process to conduct conversions of Afghanis
(“Afs”) to U.S. dollars (“USD”) and vice versa. Use of this process results in the actual spot rates
existing on the date each conversion occurs not being used. World Vision could not provide
documentation indicating the specific conversion methodology that USAID instructed the organization to
use when converting USD to Afs. Thus, one cannot determine if the approach used by World Vision is
compliant with Mission directives or if the use of an average rate in lieu of daily or spot rates is
considered to be inappropriate thus rendering any overcharges ineligible.

Questioned costs: None

Effect: The U.S. Government may have been overcharged as a result of World Vision retaining excess
cash balances over a period of time and utilizing an average rate for currency conversions or otherwise
holding cash until such a time as the exchange rate is more favorable for financial reporting purposes.

Cause: World Vision's headquarters did not retain documentation of the Chief of Party's meeting or of
the Mission's instruction regarding the approved conversion process.

Recommendation: We recommend that World Vision retain documentation of the Chief of Party's
meeting with the Mission during which the exchange rate conversion process established by or agreed
to by USAID is communicated. The documentation should be provided to those individuals responsible
for financial management and accounting for costs incurred under the award.




                                               (Continued)

                                                                                                       22.
Finding 2013-06: Reporting: Supporting Documentation for Programmatic Reports

Material Weakness

Criteria: Pursuant to the provisions of 22 CFR Part 226.53, supporting documents and all other records
pertinent to an award shall be retained for a period of three years from the date of submission of the
final expenditure report.

World Vision is responsible for establishing and maintaining a system of internal control that detects and
corrects errors in reporting and issues of noncompliance.

Condition: World Vision was unable to provide documentation supporting the quantities of beneficiaries
reported. Section 4 of World Vision's final project report indicated that 46,318 direct beneficiaries and
231,590 indirect beneficiaries were reached through project activities. The same report later included a
combined 50,406 beneficiaries for the provinces of Herat, Badghis, and Ghor. To test the accuracy of
the report and to audit the eligibility of the reported beneficiaries, the auditor requested a list of the direct
beneficiaries for a sample of nine locations, as shown in Table B, below. We also noted that the total
beneficiaries referenced in the report (46,318) did not agree to the sum of the beneficiaries presented in
Section 4 of the final report ("Performance Analysis").

Per discussion with World Vision, there was not an established procedure in place for the review and
approval of performance reports prior to submission to USAID, which would have detected and
corrected the reporting discrepancies.


          TABLE B: Beneficiaries As Rep orted by World Vision in the Final Project Report

                                                                    Location/
Item               Nature of Work/Accomplishment                    Province                     Beneficiaries
  1    Road Rehabilitation and Graveling                              Herat                             3,407
  2    Construct culverts                                             Herat                               851
  3    Extension of potable water network                             Herat                             3,470
       Construct /repair schools, community centers, and health
 4     facilities                                                    Badghis                                138
 5     Construct  culverts                                           Badghis                                182
 6     Reforestation                                                 Badghis                                500
 7     Canal cleaning                                                 Ghor                                2,545
 8     Construct culverts                                             Ghor                                  122
 9     Road Rehabilitation and Graveling                              Ghor                                2,860
Total reported benefic iaries for w hich supporting documentation was not
provided:                                                                                                14,075

Questioned costs: None

Effect: The information reported to USAID may have been inaccurate or unreliable thus resulting in a
misunderstanding of actual benefits earned as a result of the Government's investment.

Cause: Lack of an internal control over performance reporting resulted in the unsupported amounts and
reporting discrepancies being undetected. World Vision also indicated that the staff was unable to
locate the information due to resource constraints such that the auditee elected not to search for the
requested documentation.

Recommendation : We recommend that World Vision document a procedure for the development and
review of performance reports. The procedure should include review of supporting documentation
underlying data to be reported to the Government.



                                                  (Continued)

                                                                                                             23.
Finding 2013-07: Reporting: Timely Submission of Federal Reports

Material Weakness and Non-Compliance

Criteria: In accordance with the provisions of 22 CFR Parts 226.51 and 226.52, quarterly reports are
due to the awarding agency within 30 days following the end of the reporting period. Final reports are
due within 90 calendar days of the award year.

Condition: World Vision consolidated two quarterly performance reports - the reports for the reporting
periods ended September 30, 2009, and December 31, 2009. Documentation indicating that the
Agreement Officer approved the consolidation of the required reports was not provided by the auditee.
The consolidated report was submitted on March 10, 2010, which was greater than 30 days after the
submission date mandated by USAID within the financial assistance regulations. In addition, World
Vision did not produce documentation showing that five other reports were submitted to USAID: the
Quarterly Performance report for October-December 2010, the Final Report, and three Financial Status
Reports for the periods July - September 2009, October - December 2009, and October - December
2010. Thus, one cannot determine if World Vision submitted the reports by the deadlines prescribed in
the cooperative agreement and applicable Federal regulations.

Questioned costs: None

Effect: Failure to submit reports to USAID in a timely manner may have inhibited the Agency’s ability to
monitor the project to the extent desired.

Cause: Reports were consolidated due to the project’s being new and there being no data to report.
World Vision does not have access to the historical emails for those individuals who submitted reports
as they are no longer employed by World Vision. As a result, evidence supporting report submissions
could not be produced.

Recommendation: We recommend that World Vision document, within its reporting procedures, a
process by which senior management periodically reviews supporting documentation evidencing that
the project team submitted the required reports by the deadlines prescribed within the cooperative
agreement. We further recommend that World Vision attach documentation of submission to the
supporting report workpapers.




                                              (Continued)

                                                                                                    24.
Finding 2013-08: Procedures to Prevent Funding Suspended, Debarred, or Excluded Parties

Significant Deficiency and Non-Compliance

Criteria: World Vision's procedures require that vendors, contractors, employees, and subgrantees be
screened to determine if they are suspended, debarred, excluded, or blocked. Searches for blocked
parties are required when associated costs meet or exceed $5,000, and excluded parties searches are
required when associated costs meet or exceed $25,000.

Per Title 22, Part 226.13 of the Code of Federal Regulations, World Vision must comply with the
debarment and suspension requirements presented in 22 CFR Part 208. In accordance with the
aforementioned regulations and common rule, World Vision is restricted from providing Federal funds to
debarred, suspended, or otherwise excluded parties.

Pursuant to 22 CFR Part 208.220, contracts awarded by World Vision that exceed $25,000 are
considered to be subject to the requirements specified (i.e. these items are considered "covered
transactions"). As prescribed in 22 CFR Part 208.300, World Vision may meet the requirement by a)
checking the Excluded Parties List System (“EPLS”); b) collecting a certification from [the party] if
permitted by the regulation; or c) Adding a clause or condition to the covered transaction with [that
party].

Section C.28 of the cooperative agreement states as follows, "The Contractor/Recipient is reminded that
U.S. Executive Orders and U.S. law prohibits transactions with, and the provision of resources and
support to, individuals and organizations associated with terrorism. It is the legal responsibility of the
contractor/recipient to ensure compliance with these Executive Orders and laws."

Condition: World Vision did not conduct searches during the period of performance for twenty-two of
sixty-one procurement transactions that were funded through the FIRUP project. Of the twenty-two
covered transactions, one transaction containing multiple parties was noted as containing parties that
may be excluded. The specific individuals that were reflected in the System for Award Management as
being excluded were:          ,                ,      ,     , and        . The value of the associated
transaction was $1,140. Using the data available from the Federal resources and due to World Vision’s
not having conducted checks for excluded or prohibited statuses during the period of performance, one
cannot determine if the identified entities were excluded during the performance period.

Questioned costs: $1,140, which represents the payments made to the aforementioned individuals.

Effect: The Government may have funded vendors that were prohibited from receiving financial
assistance from the Government directly or indirectly or were otherwise excluded from receiving funding
for the FIRUP project.

Cause: World Vision did not have a policy or procedure mandating the searches prior to adoption of the
Policy on Blocked Parties Screening effective September 1, 2012.

Recommendation: We recommend that World Vision contact the vendors and individuals identified and
obtain both a certification from the parties regarding their excluded or non-excluded status during the
period of performance and also request corroborating documentation, if available, showing that the
parties were not suspended, debarred, excluded, or blocked. If World Vision cannot provide adequate
support indicating that the vendors and individuals were eligible to receive Government funds, then the
$1,140 in questioned costs should be refunded to the Government.




                                              (Continued)

                                                                                                      25.
Finding 2013-09: Allowable Costs: Payment for Beneficiary

Non-Compliance

Criteria: OMB Circular A-122 states, "(1) Charges to awards for salaries and wages, whether treated as
direct costs or indirect costs, will be based on documented payrolls approved by a responsible official(s)
of the organization. The distribution of salaries and wages to awards must be supported by personnel
activity reports, as prescribed in subparagraph 8.m(2) of this appendix, except when a substitute system
has been approved in writing by the cognizant agency."

Condition: One beneficiary’s timesheet indicated that (s)he was paid for one day that the individual did
not work. The individual was paid for 19 days rather than for the 18 days worked. The individual was
paid Afs 250 per day, which translates to an overpayment of approximately $6.00 in United States
dollars using the applicable currency exchange rate.

Questioned costs: $6.00

Effect: USAID remitted payment to World Vision that was not used for its intended purposes: one
beneficiary was paid for a day he or she did not work.

Cause: Labor reports were paid by World Vision without proper review. Supervisors did not review
attendance sheets properly prior to issuing payment.

Recommendation: We recommend that World Vision repay the Government the $6.00 that was
overcharged to the project.




                                              (Continued)

                                                                                                      26.
Finding 2013-10: Generation of a Procurement Population

Significant Deficiency and Non-Compliance

Criteria: 22 CFR Part 226.21(b)(2) requires that World Vision’s financial management system provide for
“records that identify adequately the source and application of funds for federally-sponsored activities.
These records shall contain information pertaining to all Federal awards, authorizations, obligations,
unobligated balances, assets, outlays, income and interest.”

22 CFR Part 226.21(b)(3) requires that World Vision’s financial management system provide for
effective control over and accountability for all funds, property and other assets.”

22 CFR Part 226.2 defines “obligations” as “the amounts of orders placed, contracts and grants
awarded, services received and similar transactions during a given period that require payment by the
recipient during the same or a future period.”

Condition: World Vision could not produce a procurement population consisting of all procurement
transactions that resulted in obligations under the award (i.e. purchase orders and contracts or grants
awarded). World Vision provided two populations for consideration that were based on expenditure
transactions recorded to the general ledger as opposed to unique procurement transactions that
ultimately led to the expenditures. Due to World Vision’s inability to produce a listing of purchase
orders, contracts, and other obligations, the population provided could not be determined to be
complete.

In the absence of a complete population of procurements that is available for monitoring and review,
World Vision may not execute adequate control over Federal funds. The opportunity for individuals to
circumvent the procurement process without being detected through monitoring and audit procedures is
increased, and individuals may place orders to vendors selected through previously completed
procurement processes without going through World Vision’s established procurement procedures to
ensure that costs are reasonable, purchases are necessary, and procurement records are complete.

Questioned costs: None

Effect: World Vision employees may circumvent procurement controls, which could result in
unnecessary purchases and unreasonable costs being incurred.

Cause: World Vision has traditionally utilized expenditure transactions for purposes of generating
procurement populations and does not maintain a listing of procurement transactions and resultant
obligations.

Recommendation: We recommend that World Vision establish and document a procedure for the
development and maintenance of a procurement register that includes the full procurement population
for a given project. The register should contain the contract number, purchase order number,
associated award number, and/or other unique identifying information for each completed
purchasing/procurement process. World Vision should further incorporate review of this item for
accuracy and completeness during its internal audit and/or internal control monitoring procedures.




                                                                                                     27.
SECTION II: Summary Schedule of Prior Audit, Review, and Assessment Findings

Cooperative Agreement number 306-A-00-09-00513-00 funding the FIRUP project was included within
the scope of the audits conducted in accordance with OMB Circular A-133 for the fiscal years ended
September 30, 2009, September 30, 2010, and September 30, 2011. Copies of the audits were
provided to Crowe by World Vision. The audit reports included two findings relevant to the FIRUP
project. These findings and associated corrective action are summarized below:

Combined Financial Statements and OMB Circular A-133 Compliance Reports, September 30, 2009
(With Independent Auditors’ Report Thereon)
The auditors noted, within finding 09-01, that World Vision did not follow its documented policy to verify
that vendors had not been suspended or debarred indicating a lack of internal controls and resulting in
noncompliance with OMB Circular A-110. World Vision noted, within its corrective action plan, that
procedures would be established within fiscal year 2010 that would include comparing vendors to the
Excluded Parties List System (“EPLS”). The EPLS included the identities of parties that were
suspended, debarred, or otherwise excluded.

Status: During our procedures, we noted that World Vision did not provide evidence supporting that
EPLS searches had been conducted for twenty-two of sixty-one procurement selections. This matter is
repeated. See Finding No. 2013-08 in this report.

Combined Financial Statements and OMB Circular A-133 Compliance Reports, September 30, 2010
(With Independent Auditors’ Report Thereon)
The auditors repeated, within finding 10-01, the suspension and debarment finding noted within the
audit reports for the fiscal year ended September 30, 2009. The auditors noted that World Vision did
not follow its documented policy and implement the corrective action needed to verify that vendors had
not been suspended or debarred indicating a lack of internal controls and resulting in noncompliance
with OMB Circular A-110. World Vision noted, within its corrective action plan, that a new software
system (WatchDOG Pro) would be rolled out in fiscal year 2011 to aid staff in conducting checks against
the EPLS.

Status: During our procedures, we were provided with evidence of the WatchDOG Pro searches that
were conducted during fiscal year 2011. This matter is not repeated because World Vision took
adequate corrective action.




                                                                                                      28.
APPENDIX A – Views of Responsible Officials




                                              29.
 
 
 
World Vision, Inc. 
Food Insecurity Response for Urban Populations Program 
For the Period March 11, 2009 through January 15, 2011 
Summary of Management Comments 
 

During the course of the audit, World Vision made all records available to the auditors.  However, the 
auditors did not examine all available documentation as the auditors limited their audit scope to the 
FIRUP award only. 

Finding 2013‐01 contains $667,795 of the total $674,049 in questioned costs identified in this report.   
The questioned costs totaling $667,795 represent amounts that were undercharged to the Federal 
Government.   World Vision’s management provided responses to this finding and remaining nine 
findings (resulting in questioned costs totaling $6,254) in Appendix A of this report. 

                                  




                                                                                                      30.
 
 
World Vision, Inc. 
Food Insecurity Response for Urban Populations Program 
For the Period March 11, 2009 through January 15, 2011 
Appendix A – Views of Responsible Officials 
                                                                                                               

Finding 2013‐01 

World Vision agrees that the method in allocating certain costs to the FIRUP award could have been 
more precise and consistent.  However, the Federal Government did not unintentionally supplement 
non‐Federal projects.  In fact, the majority of the costs categorized as “questioned costs” in this report 
of $667,795 represent amounts that were not charged to any federal award including the FIRUP 
project.  Rather, these costs represent allowable and allocable costs related to the FIRUP project 
objectives, primarily funded by private non‐federal sources.   Although World Vision recognizes that a 
portion of these costs totaling $6,644 was charged to the FIRUP award as indirect charges, the net 
impact resulted in a net undercharged amount of $661,151.  Consequently, this finding would not 
require any repayment to USAID.    

World Vision’s methodology during the award period complies with the Cost Principles in OMB Circular 
A‐122 and results in a fair and equitable distribution of reasonable, allowable, and allocable World 
Vision Afghanistan Office costs.  Such costs were audited as part of World Vision’s annual A‐133 audit, 
including World Vision’s Indirect Cost Rate, in fiscal years 2009‐2011, which have been subsequently 
reviewed and approved by USAID.  

In order to clarify internal procedures, World Vision will ensure that the method in allocating costs to 
federal and private projects is more clear and consistent.   
 
Finding 2013‐02 

Due to high staff turnover and the fact that this award ended approximately three years ago, World 
Vision agrees that the World Vision Afghanistan office could not locate certain eligibility 
documentation associated with a select number of beneficiaries totaling $4,949.  However, World 
Vision does not agree that USG regulations require EPLS screening of individual beneficiaries under this 
cooperative agreement.  Rather, EPLS screening requirements prescribed in 22 CFR Part 208 apply to 
vendor payments under procurement transactions, rather than cash distributions to beneficiaries.   
 
Finding 2013‐03 

Under the FIRUP cooperative agreement, World Vision used reasonable estimates in requesting 
expenditure reimbursements from USAID.   World Vision agrees that the nominal imputed interest due 
on excess cash balances was $295, which provides evidence that such estimates were reasonable.   

                                  




                                                                                                       31.
Finding 2013‐04 

World Vision agrees that the World Vision Afghanistan Office could not locate supporting 
documentation related to charges totaling $159.  However, the questioned costs totaling $159 do not 
meet the OMB Circular A‐133 questioned cost reporting criteria of “known questioned costs which are 
greater than $10,000”.    
 
Finding 2013‐05 

World Vision agrees that the World Vision Afghanistan Office could not locate the USAID local 
mission’s approval of World Vision Afghanistan’s local currency conversion process.  World Vision will 
take steps to ensure that World Vision Afghanistan staff retain documentation related to any local 
currency conversion agreements required under any future federal awards.   
 
Finding 2013‐06 

World Vision agrees that World Vision Afghanistan staff could not locate support for certain 
beneficiary data included in the performance reports.  World Vision will strengthen procedures to 
ensure that beneficiary data supporting performance reports will be retained. 
 
Finding 2013‐07 

World Vision agrees that the World Vision Afghanistan Office could not locate evidence of the report 
submission for two quarterly performance reports.  World Vision will re‐emphasize to staff the 
importance of retaining evidence of performance report submission dates to provide proof that 
reports were submitted on a timely basis.   
 
Finding 2013‐08 

World Vision agrees that no EPLS screening occurred during the period of performance between 
FY2009‐FY2011.  However, World Vision performed an after‐the‐fact screening of the five individual 
vendors noted by the auditors, which resulted in no positive matches with the EPLS list associated with 
the award period.  The specific individuals identified by the auditors as potential matches (e.g., due to 
common and similar names) do not represent excluded parties during the award period.  This 
documentation was provided to the auditors.  As such, we do not agree that this finding would result 
in any questioned costs. 

Further, as referenced in Section II of this report, a similar finding regarding EPLS screening was 
identified in World Vision’s FY10 Circular A‐133 Audit Report which was subsequently cleared in the 
Organization’s FY11 A‐133 report.   This resolution was also reviewed and approved by USAID in 
September 2013.   
 
                                  




                                                                                                      32.
Finding 2013‐09 

World Vision agrees with the finding that one transaction of $6 was paid and charged in error.  
However, the questioned cost amount of $6 does not meet the OMB Circular A‐133 questioned cost 
reporting criteria of “known questioned costs which are greater than $10,000”.    
 
Finding 2013‐10 

World Vision respectfully does not agree with this finding.  The Organization’s accounting records fully 
comply with the requirements set forth in 22 CFR 226.  As such, World Vision provided to the auditors 
a complete general ledger detailing all transactions charged to the FIRUP award, including all 
procurement transactions.  Further, no exceptions were noted in any procurement transactions 
selected for testing. 

 




                                                                                                      33.
APPENDIX B – Auditor’s Rebuttal




                                  34.
Crowe Horwath LLP, in consideration of the views presented by the management of World Vision, Inc.,
(“World Vision” or the “auditee”), presents the following rebuttal to certain matters presented by the
auditee. The responses below are intended to clarify factual errors and provide context, where
appropriate, to assist users of the report in their evaluation of the audit report. In those instances where
management’s response did not provide new information and support to modify the facts and
circumstances that resulted in the initial finding, we have not provided a response. The absence of a
rebuttal indicates that Crowe does not deem it necessary to correct or clarify any response of the
auditee.

General Matter

World Vision noted that the questioned costs included in findings 2013-04 and 2013-09 are less than
$10,000 and are not required to be reported in accordance with OMB Circular A-133. While
management is correct in terms of the questioned costs threshold for A-133 reports, this audit was not
intended to and was not conducted in accordance with OMB Circular A-133. In accordance with the
reporting requirements specified by the Office of the Special Inspector General for Afghanistan
Reconstruction, all questioned costs are required to be included within the audit report.

Finding 2013-01

Crowe disagrees with management’s assertion that the “methodology during the award period complies
with the Cost Principles in OMB Circular A-122 and results in a fair and equitable distribution of
reasonable, allowable, and allocable World Vision Afghanistan costs.” As management noted within its
response, there were direct costs charged to the FIRUP award as indirect charges. Further,
management’s response did not reference the catalyst for the transfer of direct charges to the indirect
cost pool, which management previously disclosed as being a budgetary limitation established for the
FIRUP project. The $667,795 reflected within the finding were direct costs associated with
implementation of the FIRUP project. The transfer of costs and inconsistent treatment of costs are in
direct contravention of the requirements presented within OMB Circular A-122. In accordance with the
provisions of OMB Circular A-122, to be allowable, costs must be afforded consistent treatment,
conform to any limitations or exclusions set forth in the cost principles or in the award as to types or
amount of cost items, and be allocable to the award. A cost is considered to be allocable to an award "if
it is treated consistently with other costs incurred for the same purpose in like circumstances" and "may
not be shifted to other Federal awards to overcome funding deficiencies or to avoid restrictions imposed
by law or by the terms of the award.” Thus, the questioned cost amount of $667,795 referenced within
the report is accurate as presented.

Whereas the scope of the audit was limited to the FIRUP project and procedures pertaining to indirect
cost charges were limited to compliance with and application of the terms, conditions, and rates
included within the Negotiated Indirect Cost Rate Agreement (“NICRA”), we did not perform procedures
necessary to offer an opinion regarding the impact of the noncompliance on other Federal awards, use
of private donor funds, or other auditors’ procedures and conclusions. Accordingly, we offer no opinion
with regard to these matters.

Finding 2013-02

World Vision indicated within its response to the finding that recipients were not required to review the
Excluded Parties List System (“EPLS”) to determine if beneficiaries were suspended, debarred, or
otherwise excluded. The finding asserts the prohibition on funding those individuals who may
potentially be involved in terrorist activities as one of the criteria applicable to reviewing beneficiaries
eligibility. The System for Award Management (“SAM”) consolidated multiple Federal systems and
resources – including matters from the Office of Foreign Asset Control (“OFAC”) which identifies
excluded individuals who may be suspected of having terrorist involvement. Thus, SAM was utilized for
the audit procedure.




                                                                                                        35.
Finding 2013-10

World Vision disagreed with the finding due to their having provided general ledger support showing the
financial transactions charged to the award. World Vision considered the general ledger to be the
document including all procurement transactions. As referenced within the finding, World Vision could
not produce a population of completed procurement transactions. A procurement transaction is the
outcome or result of procurement procedures that authorizes a vendor to provide a good or service -
such as purchase orders and contracts – and results in a financial obligation as defined by 22 CFR Part
226.2. The general ledger support included the actual financial transactions, but did not provide a
population of procurement transactions. Thus, the audit finding is unmodified.




                                                                                                   36.
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
   Reports and Testimonies     site (www.sigar.mil). SIGAR posts all publically released reports,
                               testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs
                                        •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
